App. 1
APPENDIX
Amici Curiae Scholars of
Civil Procedure and Federal Courts
This Appendix provides amici’s titles and institutional
afﬁliations for identiﬁcation purposes only. The listing
of these afﬁliations does not imply the endorsement of
the view expressed herein by amici’s institutions.
Cassandra Burke Robertson
John Deaver Drinko—
BakerHostetler Professor of Law
Director, Center for Professional Ethics
Case Western Reserve University
School of Law
Charles W. “Rocky” Rhodes
Professor of Law
South Texas College of Law Houston
Linda Sandstrom Simard
Professor of Law
Suffolk University Law School
Bryan T. Camp
George H. Mahon Professor of Law
Texas Tech University School of Law
Arthur F. Greenbaum
James W. Shocknessy Professor of Law
The Ohio State University
Moritz College of Law
Paul R. Gugliuzza
Professor of Law
Boston University School of Law

App. 2
Jeffrey S. Gutman
Professor of Clinical Law
The George Washington University Law School
Jack Harrison
Professor of Law
Director, Center for Excellence in Advocacy
Northern Kentucky University
Chase College of Law
Sharona Hoffman
Professor of Law & Bioethics
Edgar A. Hahn Professor of Jurisprudence
Co-Director, Law-Medicine Center
Case Western Reserve University
School of Law
Allen R. Kamp
Professor Emeritus of Law
UIC John Marshall Law School
Benjamin V. Madison, III
Professor of Law
Co-Director of the Center for Ethical Formation
Regent University School of Law
Denis F. McLaughlin
Professor of Law and William E. Garland Fellow
Seton Hall University School of Law
John T. Parry
Associate Dean of Faculty
Edward Brunet Professor of Law
Lewis & Clark Law School
Andrew S. Pollis
Professor of Law
Case Western Reserve University
School of Law

App. 3
Joan M. Shaughnessy
Roger D. Groot Professor of Law
Washington and Lee University School of Law

